WAIVER
Supreme Court of the United States
No. 20-1578

William “Will” Andrew Graven
(Petitioner)

State of Arizona, et al.
(Respondents)

v.

I DO NOT INTEND TO FILE A RESPONSE to the petition for writ of certiorari
unless one is requested by the Court.
Please check the appropriate boxes:
13

Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please
enter my appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of this Court. Should a response be requested, the
response v\jll be fi
by a Bar tnemb^

Signature j

Date:
(Type or print) Name:

Firm
Address
City & State
Phone

May

Mark C. Dangerfield
3 Mr.
Ms.

Mrs.

Miss

Gallagher & Kennedy, M.S.
2575 East Camelback Road, #1100
Phoenix, AZ 85016
602-530-8000
Email mark.dangerfield(ggknet.com

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A
COPY OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc:

William “Will” A. Graven, Petitioner, In Pro Se
2700 South Woodlands Village Blvd., Suite 300-251
Flagstaff, AZ 86001

